HHS/OIG, Audit - "Audit of Medicaid Payments for Oxygen Related Durable
Medical Equipment and Supplies, January 1, 1998 Through December 31, 2000 - Texas
Health and Human Services Commission, Austin, Texas," (A-05-02-00048)
Department
of Health and Human Services
"Audit of Medicaid Payments for Oxygen Related Durable Medical Equipment
and Supplies, January 1, 1998 Through December 31, 2000 - Texas Health and Human
Services Commission, Austin, Texas," (A-05-02-00048)
September 4, 2002
Complete Text of Report is available in PDF format
(593 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit
was to determine if the Texas Medicaid program was reimbursing providers amounts
in excess of State Medicare limits for durable medical equipment (DME) and supplies
used to provide oxygen.  We found that the Medicaid program was overcharged
approximately $3.2 million due to excessive Medicaid reimbursement rates.
The excessive reimbursements occurred because the State agency set the reimbursement
limits for these items above the dollar amount allowed for similar items under
the Medicare program.  We recommended that the State refund $3,181,518
(Federal share $1,969,704) and limit the maximum allowable price for DME and
supplies to amounts equal to or less than the Medicare allowable amount for
the same items.  A State agency official generally concurred with our recommendations.